OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/AFGHANISTAN’S
CASHIERING OPERATIONS
AUDIT REPORT NO. 5-306-06-001-P
January 10, 2006




Manila, Philippines
Office of Inspector General

January 10, 2006

MEMORANDUM

TO:                  USAID/Afghanistan, Director, Alonzo Fulgham

FROM:                Acting RIG/Manila, George R. Jiron Jr. /s/

SUBJECT:             Audit of USAID/Afghanistan’s Cashiering Operations
                     (Audit Report No. 5-306-06-001-P)

This memorandum transmits our final report on the subject audit. In finalizing this report, we
considered your comments on our draft report and have included the comments in Appendix II.

This report does not contain any recommendations for your action.

Once again, I want to thank you and your staff for the cooperation and courtesy extended to us
during the audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Boulevard, 1308 Pasay City
Manila, Philippines
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 2

Audit Finding ................................................................................................................... 3

Did USAID/Afghanistan manage its cashiering operations in
accordance with established regulations, policies and procedures?

Evaluation of Management Comments ......................................................................... 5

Appendix I – Scope and Methodology .......................................................................... 6

Appendix II – Management Comments ......................................................................... 8
SUMMARY OF RESULTS
The Regional Inspector General/Manila conducted this audit to determine whether
USAID/Afghanistan managed its cashiering operations in accordance with established
regulations, policies and procedures. (See page 2.)

The audit found that USAID/Afghanistan did manage its cashiering operations in
accordance with established regulations, policies and procedures. (See page 3.)

USAID/Afghanistan concurred with the contents of this report; its comments are included
at Appendix II. (See page 8.)




                                                                                     1
BACKGROUND
Mission cashiering operations are governed by policies and procedures issued by the
U.S. Department of the Treasury, the U.S. Department of State, and the U.S. Agency for
International Development.

A Mission cashier typically (1) maintains an imprest fund in amounts prescribed by
USAID/Washington; (2) makes cash disbursements from the imprest fund against
properly authorized documents; (3) accepts payments on behalf of the U.S.
Government, such as on bills of collection; (4) deposits funds collected into the U.S.
Disbursing Office’s dollar account; and (5) maintains records of cash payments made by
the alternate cashier and replenishes the imprest fund of the alternate cashier.

Generally, the purpose of an imprest fund is to make small payments when the ordering
of checks is not practical and where the best interests of the U.S. government are
served by making payments in cash. Also, cash on hand must be kept to the minimum
needed to meet normal requirements.

At the time of our audit (September 26-28, 2005), USAID/Afghanistan’s authorized
imprest fund level was $300,000 and the actual level was $230,587. The Mission
needed such a large imprest fund to meet its normal operating requirements because
Afghanistan lacked an established banking system. The Mission had a principal cashier,
an alternate cashier, and four subcashiers.   Cash disbursements could be made for
such purposes as payrolls, utilities payments, and accommodation exchange
transactions.

AUDIT OBJECTIVE

The Regional Inspector General/Manila conducted this audit as part of its fiscal year
2006 annual audit plan to answer the following question:

•   Did USAID/Afghanistan manage its cashiering operations in accordance with
    established regulations, policies and procedures?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                    2
AUDIT FINDING
USAID/Afghanistan managed its cashiering operations in accordance with established
regulations, policies and procedures.

The Code of Federal Regulations, Title 31, Part 208; the U.S. Department of Treasury’s
Manual of Procedures and Instructions for Cashiers; the U.S. Department of State’s
Foreign Affairs Handbook; and USAID-published guidance such as the Automated
Directives System, Chapter 630 establish the principal requirements to be followed by
missions in managing their cashiering operations. These requirements address such
issues as making cash payments when a country’s infrastructure does not support payment
by a non-cash mechanism, establishing imprest funds at appropriate levels, designating
cashiers, establishing roles and responsibilities for cashiers and their supervisors, and
installing adequate physical security and separation of duties.

USAID/Afghanistan provided guidance to cashiers, and implemented a number of other
internal controls to carry out its cashiering operations according to established
requirements. For example, the Mission:

•   Followed appropriate procedures in establishing its imprest fund.

•   Formally designated its cashiers.

•   Established authorities for its cashiers commensurate with the size of the imprest
    fund.

•   Provided training to its cashiers.

•   Issued its own policies and procedures to provide its cashiers with supplemental
    guidance.

•   Implemented adequate segregation of duties.

•   Periodically performed and documented unannounced cash counts.

•   Periodically reviewed and adjusted the level of its imprest fund.

In addition to the above, USAID/Afghanistan installed physical safeguards that were
commensurate with the size of its imprest fund. For example, the cashiers’ office was
segregated from other Mission offices. Additionally, the principal and the alternate
cashiers each had a U.S. government-approved safe for storing cash, paid vouchers,
checks, and other cashiering documentation. The two safes had different combinations
that were appropriately safeguarded. The Mission also installed a security camera to
monitor the cashiers’ office 24 hours a day, 7 days a week. Moreover, the Mission
routinely requested the Regional Security Officer to provide armed escorts when Mission
cashiers went to the bank to replenish the imprest fund.




                                                                                       3
As part of the testing of the internal controls implemented by USAID/Afghanistan, we
performed an unannounced cash count of the imprest fund maintained by the principal
and alternate cashiers.       Specifically, we verified the accuracy of the cashiers’
reconciliation statement to account for the imprest fund total of $230,587. 1 Our cash
count found that the $230,587—consisting of cash and other cashiering documentation
such as paid vouchers, cash advances to subcashiers, and accommodation exchange
transactions—was accounted for and properly documented except for an immaterial
shortage of $22. Additionally, our testing found that the size of the imprest fund was not
excessive but in line with the Mission’s needs.




1
 Of the $230,587, the principal cashier maintained $149,000 and the alternate cashier
maintained $81,587.


                                                                                        4
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Afghanistan concurred with the contents of this report. The Mission’s written
comments are included in their entirety as Appendix II to this report.




                                                                                 5
                                                                                  APPENDIX I



SCOPE AND METHODOLOGY
Scope

The Regional Inspector General/Manila audited USAID/Afghanistan’s cashiering
operations in accordance with generally accepted government auditing standards. The
objective of the audit was to determine whether the Mission managed its cashiering
operations in accordance with established regulations, policies and procedures. The
audit fieldwork was performed at USAID/Afghanistan in Kabul, Afghanistan from
September 26-28, 2005.

To conduct the audit, we gained an understanding of and assessed the Mission’s
significant internal controls over its cashiering operations. These internal controls
included the establishment of the imprest fund; designation of cashiers; establishment of
cashier authorities; safeguarding of imprest fund assets; separation of duties; and
unannounced cash counts of the imprest fund. Additionally, we reviewed the Mission’s
fiscal year 2005 Federal Manager’s Financial Integrity Act annual certification for any
management control weaknesses related to cashiering operations. We also reviewed
the OIG’s most recent audit report on the Mission’s cashiering operations to determine
whether there were any prior audit findings that could impact this audit.

Our audit covered the $230,587 imprest fund maintained by the principal cashier, the
alternate cashier, and the four subcashiers. 2 However, we did not perform unannounced
cash counts of the combined total of $11,000 in cash advanced to the four subcashiers
because the amount held by each subcashier was immaterial and did not warrant the
securitiy risks and arrangements that would be involved in traveling to where the
subcashiers were located. We did review their cash advance vouchers and the interim
receipts that they had submitted at the time of our fieldwork.

Methodology

To answer the audit objective, we interviewed appropriate Mission officials and staff;
reviewed relevant regulations, policies and procedures, including those established by
the Mission; reviewed cashier designations and authorities; performed an unannounced
cash count of the imprest fund; reviewed the physical security of the cashiers’ office; and
reviewed other documentation, such the Mission’s own reviews of its cashiering
operations. Furthermore, we reviewed a judgmentally selected sample of cash
reconciliation statements to verify their accuracy by reconciling each line item on the
statements to their supporting documents and to evaluate whether the size of the
imprest fund was excessive.

To determine the significance of our audit findings, we used the following methodology:

•      We would conclude that the Mission managed its cashiering operations in
       accordance with established requirements if we noted no material weaknesses.

2
    The four subcashiers were located in the provinces of Badakhshan, Helmand, Herat, and Kabul.


                                                                                               6
•   We would conclude that the Mission managed its cashiering operations in
    accordance with established requirements, but with certain exceptions, if we noted
    no material weaknesses but identified one or more reportable conditions.

•   We would conclude that the Mission did not manage its cashiering operations in
    accordance with established requirements if we noted one or more material
    weaknesses.

We used the definitions of “material weakness” and “reportable conditions” as follows:

•   A material weakness is a reportable condition (see below) in which the design or
    operation of one or more of the internal controls components does not reduce to a
    relatively low level the risk that waste, loss, unauthorized use or misappropriation of
    funds, property or other assets may occur and not be detected within a timely
    period by employees in the normal course of their assigned duties.

•   Reportable conditions are matters coming to the auditors’ attention that in the
    auditors’ judgment should be communicated because they represent significant
    deficiencies in the design or operation of an internal control, which could adversely
    affect the entity’s ability to meet the internal control objectives described in the
    report.




                                                                                         7
                                                                    APPENDIX II



MANAGEMENT COMMENTS
             USAID AFGHANISTAN
             FROM THE AMERICAN PEOPLE




December 11, 2005

MEMORANDUM


TO:         Acting RIG/Manila, George R. Jiron Jr.

FROM:       USAID/Afghanistan Mission Director, Alonzo Fulgham /s/

SUBJECT:    Management Comments RIG/Manila draft report on the Audit of
            USAID/Afghanistan’s Cashiering Operations (Audit Report No. 5-
            306-06-XXX-P)

            We appreciate the opportunity to respond to the subject draft report.
            The Mission concurs with the report and requests you to issue the
            same.




                                                                                8
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
